<html>
<title> - COMMITTEE'S BUDGET VIEWS AND ESTIMATES FOR FISCAL YEAR 2021</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
      COMMITTEE'S BUDGET VIEWS AND ESTIMATES FOR FISCAL YEAR 2021

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                             MARCH 4, 2020

                               __________

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                    
 
 
 
                               

            Small Business Committee Document Number 116-077
             Available via the GPO Website: www.govinfo.gov
             
             
                             ______

               U.S. GOVERNMENT PUBLISHING OFFICE 
 39-947                 WASHINGTON : 2020 
              
             
             
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania
                       DAN BISHOP, North Carolina

                 Melissa Jung, Majority Staff Director
   Justin Pelletier, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                   
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Nydia Velazquez.............................................     1
Hon. Steve Chabot................................................     2

                                APPENDIX

Additional Material for the Record:
    Committee's Views and Estimates..............................     4


      COMMITTEE'S BUDGET VIEWS AND ESTIMATES FOR FISCAL YEAR 2021

                              ----------                              


                        WEDNESDAY, MARCH 4, 2020

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:19 p.m., in Room 
2360, Rayburn House Office Building. Hon. Nydia Velazquez 
[chairwoman of the Committee] presiding.
    Present: Representatives Velazquez, Golden, Kim, Crow, 
Davids, Chu, Evans, Schneider, Espaillat, Delgado, Houlahan, 
Chabot, Balderson, Hern, Stauber, and Spano.
    Chairwoman VELAZQUEZ. Good morning. The Small Business 
Committee will come to order.
    Today's order of business is to consider the views and 
estimates of the Committee on Small Business for Fiscal Year 
2021. These resources are a critical first step in helping 
entrepreneurs launch and grow their small businesses. The 
purpose of this meeting is to set our priorities and 
expectations for fiscal year 2021 to ensure the Small Business 
Administration has the funding necessary to modernize and 
strengthen its core programs on behalf of America's 
entrepreneurs.
    While the economy has appeared healthy, much uncertainty 
remains now with the coronavirus outbreak. Just last week, the 
stock market plunged, suffering some of the worst losses since 
the 2008 Financial Crisis. Small businesses throughout the 
country currently face looming supply chain disruptions while 
consumer confidence is diminishing.
    As the virus spreads, it has the potential to significantly 
dampen global economic activity both here and abroad. With the 
threat to the economy, more entrepreneurs and small business 
owners are looking to the Small Business Administration and its 
many programs for help.
    SBA core programs ensure small employers and aspiring 
entrepreneurs have the counseling, financing, and access to the 
federal marketplace they deserve. Ensuring this program has 
robust levels of funding is operating effectively are a top 
priority for the Committee.
    Today's views and estimates reiterate the Committee's 
longstanding position to prioritize core programs like the 
Small Business Development Centers and the 7(a) Loan Program, 
rather than expending critical funding on untested agency-
initiated programs.
    To that end, the views and estimates, proposals, reports, 
increase levels of funding for the entrepreneurial development 
programs which provide free or low-cost counseling and training 
to nearly 1 million entrepreneurs each year.
    The Committee enacted bipartisan legislation last year to 
modernize the programs and maximize their effectiveness. Fully 
funding SBA's entrepreneurial development programs will 
strengthen the SBA's ecosystem and allow SBA to provide 
valuable counseling and training to more small businesses. We 
must also ensure Main Street businesses have access to 
affordable capital which plays a vital role in their success. 
Affordable capital is the key to unlocking opportunities to 
grow and create new jobs in the local economy, and this 
proposal provides the resources and funding levels to do just 
that.
    Finally, we have to work together to level the playing 
field in federal procurement opportunities for socially and 
economically disadvantaged business owners. We can achieve this 
through a greater emphasis on hiring more contracting personnel 
and providing them with adequate training in order to 
effectively assist small contractors competing in the $500 
billion federal marketplace.
    The views and estimates we are proposing will breathe new 
life into the SBA. More importantly, it will provide tangible 
benefits to small businesses and make sure taxpayers get a 
positive return on their investment.
    At this point, I will yield to the Ranking Member, Mr. 
Chabot, for any comments he may have on the Committee's views 
and estimates.
    Mr. CHABOT. I want to first thank Chairwoman Velazquez and 
her staff for again working in a bipartisan manner on the 
Committee's budget views and estimates on the Small Business 
Administration's fiscal year 2021 Budget. I appreciate her 
willingness to work collegially as we meet our responsibilities 
to America's small businesses.
    The SBA and its programs can be essential to helping small 
firms expand, create jobs, and grow our economy. The SBA helps 
many small businesses to access capital, provides counseling 
and training, and links entrepreneurs with mentors. In this 
committee, it is our responsibility to provide our views and 
estimates to the Committee on the budget to ensure that the 
SBA's programs are working efficiently and effectively on 
behalf of all small businesses all across this Nation. We must 
insist that the programs are transparent and make the best use 
of taxpayer dollars.
    Every small business starts as an idea. America is a Nation 
of creators and investors and risk-takers. Our economy was 
structured to be driven by entrepreneurs, and in fact, most net 
new job growth is from startups and new businesses. In fact, 
about 70 percent of the new jobs created in the American 
economy are created by America's small businesses.
    We are fortunate to have the SBA's new administrator, 
Jovita Carranza, to lead the agency into the future. She has a 
distinguished record both in the private sector, as well as 
having been the deputy SBA administrator under President George 
W. Bush. We look forward to seeing her vision in action.
    The Chairwoman and I very often agree, but there are times 
when we do not fully agree. And thus, even though I will be 
voting for the Committee's budget views and estimates, I will 
also be offering a motion later to submit additional views and 
estimates from the minority members of this Committee.
    And again, I want to thank the Chairwoman for working in a 
bipartisan manner with us, both staff working together very 
well.
    And I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back. I thank 
him for his remarks.
    Are there any other Members who wish to be recognized for a 
statement on the views and estimates of the Committee for 
fiscal year 2021?
    Seeing no Members, the Committee now moves to consideration 
of the views and estimates.
    The clerk will read the title of the document.
    The CLERK. Views and estimates of the Committee on Small 
Business----
    Chairwoman VELAZQUEZ. I ask unanimous consent that the 
views and estimates be considered as read and open for an 
amendment in its entirety.
    Does any Member seek recognition for the purpose of 
offering an amendment?
    Seeing no amendments, we will move on.
    The question is on adopting the views and estimates on the 
priorities of the Committee for fiscal year 2021.
    All those in favor, say aye.
    Those opposed, no.
    In the opinion of the chair, the ayes have it.
    The ayes have it, and the views and estimates are agreed 
to.
    I will now recognize the Ranking Member for the purpose of 
making a motion.
    Mr. CHABOT. Thank you, Madam Chairwoman. And I would move 
that the minority members of the Committee be permitted to file 
additional views and estimates on the budget for fiscal year 
2021.
    Chairwoman VELAZQUEZ. Without objection, so ordered.
    Mr. CHABOT. Thank you.
    Chairwoman VELAZQUEZ. The Committee is authorized to make 
technical and grammatical corrections to the views and 
estimates.
    We are adjourned and the Committee will stand in recess for 
a few moments to prepare for the committee hearing. Thank you.
    [Whereupon, at 11:26 a.m., the committee was adjourned.]
    
                            A P P E N D I X
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                            


                                 <all>
</pre></body></html>
